App. A

United States v. Hanuman, 821 Fed.Appx. 662 (2020)

his residence, when officers arrived the lights
were on inside the residence and they could
hear someone yelling for help, after obtaining
permission to breach the door, which delayed the
apprehension of possible assailants and provided
time for any assailants to hide, officers found a
traumatized victim who appeared to have trouble
breathing, and defendant, who was found in the
garage, did not respond to officers' inquiries as to
whether anyone else was in the residence. U.S.
Const. Amend. 4.

821 Fed.Appx. 662
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1,
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 8th Cir. Rule 32.1A.
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America Plaintiff - Appellee
v.
Michael Scott HANUMAN Defendant - Appellant
No. 19-2232
|
Submitted: June 19, 2020
|
Filed: August 18, 2020
Synopsis
Background: After his motion to suppress evidence was
denied, defendant entered a conditional guilty plea in the
United States District Court for the District of Minnesota,
Ann D. Montgomery, Senior District Judge, to possession
with intent to distribute methamphetamine and possession of
a firearm. Defendant appealed.

[Holding:] The Court of Appeals held that police officers'
protective sweep of residence did not violate defendant's
Fourth Amendment rights.

Appeal from United States District Court for the District of
Minnesota
Attorneys and Law Firms
Craig Raymond Baune, Assistant U.S. Attorney, Benjamin
Bejar, Assistant U.S. Attorney, U.S. Attorney's Office,
District of Minnesota, Minneapolis, MN, for PlaintiffAppellee
Michael Scott Hanuman, Pro Se
Douglas Micko, Federal Public Defender's
Minneapolis, MN, for Defendant-Appellant

Office,

Before GRUENDER, WOLLMAN, and KOBES, Circuit
Judges.

[Unpublished]
Affirmed.

PER CURIAM.

Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

methamphetamine in violation of

West Headnotes (1)
[1]

Searches and Seizures
security check

Michael Scott Hanuman entered a conditional guilty
plea to charges of possession with intent to distribute
21 U.S.C. §§ 841(a)

(1) and
(b)(1)(B), and possession of a firearm in *663
furtherance of a drug-trafficking crime in violation of
Protective sweep;

Police officers' protective sweep of residence
did not violate defendant's Fourth Amendment
rights; officers knew of defendant's history of
possessing firearms and using drugs, as well
as the presence of surveillance cameras at

18 U.S.C. § 924(c)(1)(A). The district court 1 sentenced
Hanuman to 172 months’ imprisonment. We affirm.
1

The Honorable Ann D. Montgomery, United States
District Judge for the District of Minnesota,
adopting the report and recommendation of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 1

1

United States v. Hanuman, 821 Fed.Appx. 662 (2020)

Honorable Steven E. Rau, United States Magistrate
Judge for the District of Minnesota, now deceased.
Deputies from the Dakota County Sheriff's Department were
dispatched to Hanuman's residence shortly before midnight
on January 6, 2018. The deputies knew that Hanuman was on
probation for possessing firearms, that he had a history of drug
use, and that he had multiple surveillance cameras around his
residence. Lights were on inside Hanuman's home when the
deputies arrived, a vehicle was parked in the attached garage,
and a second vehicle was parked in the driveway. Deputies
knocked on the front door and heard a woman crying for help.
After receiving permission from their supervisor, the deputies
breached the door and found the woman lying motionless
at the bottom of the stairs, moaning and yelling in pain and
appearing to be having trouble breathing. One deputy stated
that the woman yelled and screamed that, “Mike was here”
or “Mike is here,” and that he had assaulted her, though she
did not know whether he was armed. Another deputy's postarrest report asserted that the victim had also indicated that
just Mike was present in the house. Upon observing visible
marks and redness on the woman's face, the deputies called
for an ambulance. While they were awaiting its arrival, one of
the deputies administered oxygen to her from his medical bag.
Because Hanuman did not respond when the deputies began
calling to him, two of the deputies began searching the
house for him. The other two deputies soon found Hanuman
crouching in front of the vehicle in the garage, where they
were joined by the two house-searching deputies. After
handcuffing and arresting Hanuman, the deputies discovered
a large amount of cash on his person. Hanuman did not
respond when twice asked if there was anyone else in the
home. The deputies then conducted a some three-minute
protective sweep of the residence, during which they observed
evidence of drug distribution. They thereafter obtained a
search warrant based in part on the evidence viewed during
the protective sweep. Their subsequent warrant-authorized
search revealed further evidence of drug distribution, as well
as firearms and ammunition.
The district court denied Hanuman's motion to suppress
evidence, concluding that the protective sweep was justified
because of the officers’ reasonable belief that other persons
could be hiding within the residence. On appeal, Hanuman
argues that the protective sweep violated his Fourth
Amendment rights, contending that the protective sweep was
unnecessary because he had already been handcuffed and
placed under arrest and because the victim had indicated that
no one other than he was present.

The Fourth Amendment permits protective sweeps of areas
beyond the space “immediately adjoining the place of arrest”
when there exist “articulable facts which, taken together
with the rational inferences from those facts, would warrant
a reasonably prudent officer in believing that the area to
be swept harbors an individual posing a danger to those
on the arrest scene.”

Maryland v. Buie, 494 U.S. 325,

United
334, 110 S.Ct. 1093, 108 L.Ed.2d 276 (1990); see
States v. Davis, 471 F.3d 938, 944 (8th Cir. 2006) (“A
protective sweep may be executed after an arrest if there is
a reasonable possibility that other persons may be present
on the premises *664 who pose a danger to the officers.”).
We find no error in the district court's determination that a
protective sweep of the home was supported by a reasonable
suspicion that other persons may have been hiding therein.
See Davis, 471 F.3d at 944 (“We review the District Court's
factual findings for clear error and its legal conclusions
de novo when examining the motion to suppress.”). The
deputies knew of Hanuman's history of possessing firearms
and using drugs, as well as of the presence of surveillance
cameras at his residence. They saw two cars at Hanuman's
residence and lights on in his home. Having sought and
obtained permission to breach the door, they were delayed
in apprehending any possible assailants, providing time for
any such persons to hide. Although Hanuman may not
have been required to respond to their inquiries, neither
were the deputies required to rest assured from his silence,
or from the severely traumatized, oxygen-deprived victim's
responses, that no other individuals might be present who
could pose a threat to their or to the victim's safety, as
well as to the safety of those who were attending to her
needs. The deputies’ brief, reasonably based protective sweep
thus did not violate Hanuman's Fourth Amendment rights
Davis, 471 F.3d
notwithstanding his immobilization. See
at 945 (upholding protective sweep because the existence
of surveillance cameras and the presence of multiple cars
on the property, as well as the knowledge of defendant's
prior firearms possession, are factors that can indicate a
“heightened possibility of a surprise attack”); United States v.
Waters, 883 F.3d 1022, 1025-26 (8th Cir. 2018) (per curiam)
(upholding protective sweep notwithstanding the defendant's
fiancée's statement to investigating officers that the defendant
was the only person inside the residence). In so holding, we
have considered

United States v. Rodriguez, 834 F.3d 937

(8th Cir. 2016), and
United States v. Waldner, 425 F.3d
514 (8th Cir. 2005), and find that they are distinguishable

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 2

2

United States v. Hanuman, 821 Fed.Appx. 662 (2020)

on their facts. Among other things, both cases involved nonarrest situations, and neither case involved a hidden, yet to be
found and restrained non-responsive subject.
The judgment is affirmed.
End of Document

All Citations
821 Fed.Appx. 662

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 3

3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

App. B

No: 19-2232
United States of America
Appellee
v.
Michael Scott Hanuman
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the District of Minnesota
(0:18-cr-00112-ADM-1)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
September 22, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-2232

Page: 1

App. 4

Date Filed: 09/22/2020 Entry ID: 4958066

App. C

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

2018 WL 5995497
Only the Westlaw citation is currently available.
United States District Court, D. Minnesota.
UNITED STATES of America, Plaintiff,
v.
Michael Scott HANUMAN, Defendant.
Criminal No. 18-112 ADM/SER
|
Signed 11/15/2018
Attorneys and Law Firms
Benjamin Bejar, Assistant United States Attorney, United
States Attorney's Office, Minneapolis, MN, on behalf of
Plaintiff.
Douglas L. Micko, Assistant Public Defender, Office of the
Federal Defender, Minneapolis, MN, on behalf of Defendant.

MEMORANDUM OPINION AND ORDER
ANN D. MONTGOMERY, U.S. DISTRICT JUDGE
I. INTRODUCTION
*1 This matter is before the undersigned United States
District Judge for consideration of Defendant Michael Scott
Hanuman's (“Hanuman”) Objection [Docket No. 44] to
Magistrate Judge Steven E. Rau's September 18, 2018 Report
and Recommendation (“R&R”) [Docket No. 43]. In the
R&R, Judge Rau recommends denying Hanuman's Motion
to Suppress Evidence Obtained as a Result of Search and
Seizure (“Motion to Suppress Evidence”) [Docket No. 24]
and Hanuman's Motion to Suppress Statements, Admissions,
and Answers (“Motion to Suppress Statements”) [Docket No.
25]. Hanuman objects to the R&R. 1 Based on a de novo
review of the record, Hanuman's Objection is overruled, the
R&R is adopted, and Hanuman's Motions are denied.
1

During the July 9, 2018 evidentiary hearing on
Hanuman's Motions, the parties agreed that the
Motion to Suppress Statements is moot. Hr'g Tr.
[Docket No. 35] at 4. Hanuman does not object to
the recommended denial of the Motion to Suppress
Statements.

II. BACKGROUND
The factual background of this case is set forth in the R&R
and is incorporated by reference. To directly address the
Objection, some facts of record not discussed in the R&R
are relevant. Briefly, around midnight on January 6, 2018,
five Dakota County Sheriff's Deputies responded to a 911
“check welfare” call for Defendant Hanuman. Hr'g Tr. at 8–9,
57. An unidentified female had called dispatch to report that
Hanuman was in the downtown area of Hampton, Minnesota
and had phoned her multiple times saying he was “messed
up” and needed help. Id. at 9–10, 57–58. There was a concern
that Hanuman was intoxicated and wandering outside in the
frigid weather. Id. at 12–13.
The computer-aided dispatch system generated an alert for
Hanuman and his home address in Hampton. Id. at 10–11,
58–59. The alert warned that Hanuman was on probation for
being a felon in possession of a firearm, and that he had
multiple cameras around his house. Id. at 10–11, 58–59. The
deputies were also aware that Hanuman had previous arrests
for drugrelated offenses. Id. at 11, 58. The deputies had no
information whether anyone else lived at Hanuman's house.
Id. at 34.
Two of the deputies drove directly to Hanuman's home while
the other three searched for him in Hampton. Id. at 12–15. The
three deputies searching in Hampton did not locate Hanuman
so proceeded to his house. Id. at 15–16, 59.
One of the deputies who drove directly to Hanuman's home
observed some lights on in the house, but the windows in
the door of the attached garage were dark. Id. at 14, 16. The
deputy shined his flashlight into the garage and saw a sedan
and some miscellaneous garage-related items, but nothing
further. Id. at 16.
The deputy then approached the house and knocked on the
front door. Id. at 16–17. Shortly after knocking, he heard a
faint yell followed by a female voice screaming for help. Id.
at 17. The officer asked the woman if she could come to the
door, but she did not do so and continued to scream in pain. Id.
at 17–18, 62–63. Three additional deputies came to the door
to assist in forcing it open with a ram. Id. at 18–19, 63.
*2 The door opened to a split entryway, and the officers saw
a woman laying motionless at the bottom of the stairs. Id. at
21, 64–65. The woman was moaning and yelling in pain and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 5

1

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

appeared to be having difficulty breathing. Id. at 22, 65. She
told the deputies that “Mike” had hit her in the head. Id. at 23,
65. When asked whether anyone else was home, the woman
responded that “Mike” was there. Id. at 23, 65.
The deputies radioed dispatch to request an ambulance and
asked that the ambulance “stage” (i.e., not come onto the
scene) until the scene was safe. Id. at 65, 67. The deputies then
shouted to announce their presence and to ask Mike where he
was. Id. at 66. When no one responded, the deputies began a
sweep of the home with their guns drawn to look for Mike and
anyone else who might be in the home or might be injured.
Id. at 24, 66.
As two of the deputies were ascending the staircase to
the kitchen and living room, they heard two other deputies
shouting commands to a man (later identified as Hanuman)
who was found hiding behind the a car in the dark garage.
Id. at 27–29, 66–67. The deputies on the staircase turned
around before reaching the top of the stairs and went down to
the garage to assist. Id. at 28, 37–38, 66, 68. Hanuman was
handcuffed in the garage and placed under arrest. Id. at 30,
69. The deputies twice asked Hanuman if anyone else was in
the house, but he did not respond. Id. at 30, 92–93.
After Hanuman was arrested, three deputies went back into
the house and performed a protective sweep to look for other
possible victims or assailants who might still be in the home.
Id. at 30–31, 48, 69–70. The purpose of the search was to
ensure the scene was safe for the victim who remained in the
home, as well as the deputies who were treating her and the
paramedics who were on their way. Id. at 31, 70. The sweep
lasted approximately one to three minutes. Id. at 31, 76.
When performing the protective sweep, the officers observed:
a digital scale and baggies on the center island of the kitchen;
a torch and propane tank on the staircase leading to the
kitchen; and a black safe, Ziplock bags, and a Gatorade
bottle fashioned into a methamphetamine pipe in an upstairs
bedroom. Id. at 71–76. No other individuals were found in the
house. Id. at 32.
After the sweep was completed, the deputies radioed dispatch
to inform them that the scene was safe and the paramedics
were clear to enter. Id. at 77. While awaiting the paramedics,
two deputies remained in the house to provide the victim with
medical attention that included administering oxygen. Id. at
32. After the paramedics’ arrival, the victim was carried out
of the house on a backboard to an ambulance. Id. at 78.

The deputies then applied for and obtained a search warrant
for Hanuman's house and car. Id. at 78, 89–90. The search
warrant was based on the items the deputies had seen in
plain view during the protective sweep, the assault, and a
large amount of cash that was found on Hanuman when he
was arrested. Id. at 78–79. When law enforcement searched
Hanuman's car they found a .357 handgun and more than 100
grams of methamphetamine. Id. at 89.
On May 16, 2018, a grand jury returned an Indictment
[Docket No. 1] charging Hanuman with: (1) possessing
an unregistered firearm; (2) being a felon in possession
of a firearm; (3) possession with intent to distribute
methamphetamine; and (4) possessing a firearm in
furtherance of a drug trafficking crime.
*3 Hanuman moves to suppress the evidence obtained from
the warrant-based search. He argues the protective sweep
was unjustified and that the search warrant was tainted by
information obtained through the sweep. Hanuman contends
that the evidence must be suppressed as the fruit of an
unconstitutional protective sweep.

III. DISCUSSION
A. Standard of Review
In reviewing a magistrate judge's report and recommendation,
the district court “shall make a de novo determination of
those portions of the report or specified proposed findings or
recommendations to which objection is made.”
28 U.S.C.
§ 636(b)(1)(C); see also D. Minn. L.R. 72.2(b). A district
judge “may accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate judge.”
Id.
B. Hanuman's Objection
Hanuman argues the protective sweep was unlawful because
he had been secured in police control at the time of the search
and there were no facts to suggest that a dangerous person
remained in the house. Hanuman contends the protective
sweep was based solely on the officers’ perception that he
was dangerous and the absence of information about whether
someone else was in the house.
The Fourth Amendment generally prohibits the search of
a residence without a warrant issued on probable cause.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 6

2

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

Maryland v. Buie, 494 U.S. 325, 331 (1990). However,
an exception exists for the protective sweep.
Id. at 327.
“A ‘protective sweep’ is a quick and limited search of the
premises, incident to an arrest and conducted to protect the
safety of police officers or others. It is narrowly confined
to a cursory visual inspection of those places in which a
person might be hiding.” Id. A protective sweep is justified
if it is supported by “a reasonable belief based on specific
and articulable facts that the area to be swept harbors an
individual posing a danger to those on the arrest scene.” Id.
at 337. The Eighth Circuit has recognized that a protective
sweep is “particularly important during an in-home arrest,
due to the heightened potential for an ambush in unfamiliar
surroundings.” United States v. Alatorre, 863 F.3d 810, 814
(8th Cir. 2017).
Here, the protective sweep of Hanuman's home was justified
by articulable facts to support a reasonable belief that
someone posing a danger to them could be inside the house.
First, the protective sweep was necessary to protect the
officers who were tending to the victim and the paramedics
arriving on the scene from anyone who may have been in
the house. See
Buie, 494 U.S. at 334 (stating officers are
permitted to ensure their safety both “after, and while making,
the arrest”); United States v. Ford, 888 F.3d 922, 928 (8th
Cir. 2018) (“Justification for a preventive sweep does not
automatically end when a suspect is arrested.”); Alatorre,
863 F.3d at 815 (holding protective sweep justified because
officers who remained on the front porch of a residence to
deal with the defendant and his girlfriend “were vulnerable to
attack from someone inside the residence”). The officers were
justified in ensuring the home was free from danger while
they and the paramedics were required to remain in the house.
See
United States v. Lucas, 898 F.2d 606, 610 (8th Cir.
1990) (“[I]t does not make sense to prescribe a constitutional
test that is entirely at odds with safe and sensible police
procedures.”). Here, the involvement of the officers with the
crime scene did not conclude with Hanuman's arrest because
of the need to assist the victim.
*4 Second, during the time it took law enforcement to force
their way into the home, Hanuman was able to hide in the
garage until he was found. It was reasonable for the police to
believe that anyone else inside the home would similarly have
had the time and ability to hide from the officers’ view, which
had been limited to the front entryway and the garage. No
officer had reached the top of the stairway to have any view

of the upstairs portion of the house. See Alatorre, 863 F.3d at
814–15 (holding protective sweep justified where defendant's
girlfriend “lingered in the kitchen out of sight of the officers
until she was specifically called to the door, indicating that it
was easy for someone to hide just out of view of the officers
inside the residence in a position from which an attack could
be launched”); United States v. Waters, 883 F.3d 1022, 1026–
27 (8th Cir. 2018) (noting that the officers’ announcing their
presence several times before breaching the door “provided
anyone in the residence ample time to hide before officers
entered the residence”).
Third, the officers knew that Hanuman had multiple
cameras surveilling his home, which may have given ample
forewarning to others in the house of the officers’ arrival
sufficient to allow someone to hide within the house. See
United States v. Davis, 471 F.3d 938, 945 (8th Cir. 2006)
(upholding protective sweep where “surveillance cameras
were attached to the [defendant's] house, which could indicate
the heightened possibility of a surprise attack”).
Fourth, the officers knew that Hanuman had been convicted
for being a felon in possession of a firearm, making it was
possible that anyone remaining in the house might have
access to guns that could be used in an ambush. See Alatorre,
863 F.3d at 815 (noting that defendant's criminal history
involving concealed weapons made it conceivable that others
were in the house with access to weapons).
Fifth, the officers’ unexpected discovery of the assault victim
in Hanuman's home presented a violent and dangerous
situation in which the officers were uncertain as to how many
other people were inside the house and what the intention
of those other persons might be toward the officers. See
United States v. Boyd, 180 F.3d 967, 975–76 (8th Cir.
1999) (holding protective sweep justified because “[w]hen
the law enforcement officers entered the house ... they had
no way of knowing how many people were there”). Although
the assault victim responded that “Mike” was there and did
not name others when she was asked if anyone else was in
the house, the officers were not required to assume that no
one else was in the home. See, e.g., Waters, 883 F.3d at 1025
(upholding a protective sweep even though the defendant's
fiancee told officers that the defendant was the only person
inside the residence). Moreover, Hanuman refused to respond
to officers’ questions about whether anyone else was in the
house.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 7

3

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

Given the existence of articulable facts and inferences to
support a reasonable belief that an additional person on the
scene could pose a danger to them, the protective sweep of
the house was constitutional. “[T]hough hindsight reveals that
the officers had already encountered the only two individuals
present in [the defendant's] residence, the ... officers were
justified in conducting the protective sweep.” Alatorre, 863
F.3d at 815.

IV. CONCLUSION
Based upon the foregoing, and all the files, records, and
proceedings herein, IT IS HEREBY ORDERED that:

1. Hanuman's Objection to Report and Recommendation
[Docket No. 44] is OVERRULED;
2. The Report and Recommendation [Docket No. 43] is
ADOPTED;
3. Hanuman's Motion to Suppress Evidence Obtained as
a Result of Search and Seizure, [Docket No. 24] is
DENIED; and
4. Hanuman's Motion to Suppress Statements, Admissions,
and Answers [Docket No. 25] is DENIED.
All Citations
Not Reported in Fed. Supp., 2018 WL 5995497

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 8

4

App. D

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

2018 WL 6520650
Only the Westlaw citation is currently available.
United States District Court, D. Minnesota.
UNITED STATES of America, Plaintiff,
v.
Michael Scott HANUMAN, Defendant.
Case No. 18-cr-112 (ADM/SER)
|
Signed 09/18/2018
Attorneys and Law Firms
Benjamin Bejar, Esq., United States Attorney's Office,
Minneapolis, Minnesota, for Plaintiff.
Douglas L. Micko, Esq., Office of the Federal Defender,
Minneapolis, Minnesota, for Defendant.

REPORT AND RECOMMENDATION
STEVEN E. RAU, United States Magistrate Judge
*1 The above-captioned case came before the undersigned
on Defendant Michael Scott Hanuman's (“Hanuman”)
Motion to Suppress Evidence Obtained as a Result of Search
and Seizure (“Motion to Suppress Evidence”) [Doc. No.
24] and Motion to Suppress Statements, Admissions, and
Answers (“Motion to Suppress Statements”) [Doc. No. 25].
This matter was referred for the resolution of the issues raised
28 U.S.C.
in Hanuman's Motions to Suppress pursuant to
§ 636(b)(1)(B)–(C) and District of Minnesota Local Rule
72.1. For the reasons stated below, the Court recommends the
Motions to Suppress be denied.
I. BACKGROUND
On May 16, 2018, the United States of America (the
“Government”) filed an indictment charging Hanuman
with possession of an unregistered firearm in violation
of

26 U.S.C. §§ 5861(d) and 5871, being a felon in

possession of firearms in violation of
(1) and

924(a)(2), possession with intent to distribute

methamphetamine in violation of
(1) and

18 U.S.C. §§ 922(g)

21 U.S.C. §§ 841(a)

furtherance of a drug-trafficking crime in violation of
U.S.C. § 924(c)(1)(A). (Indictment) [Doc. No. 1].

18

The Court held an evidentiary hearing on July 9, 2018.
(Minute Entry Dated July 9, 2018) [Doc. No. 29]. Dakota
County Sheriff's Office Deputy James O'Meara (“Deputy
O'Meara”) and Dakota County Sheriff's Office Deputy
Timothy Fletcher (“Deputy Fletcher”) testified, and the Court
received seventeen exhibits into evidence. (Ex. & Witness
List) [Doc. No. 30]. During the hearing, the parties agreed
that the Motion to Suppress Statements is moot. (Tr. of
Evidentiary Hr'g, “Tr.”) [Doc. No. 35 at 4]. The parties
submitted supplemental briefing regarding the Motion to
Suppress Evidence. (Gov't’s Mem. in Opp'n to Def.’s Mot.
to Suppress) [Doc. No. 38]; (Mem. of Law in Supp. of Mot.
to Suppress, “Hanuman's Mem. in Supp.”) [Doc. No. 39];
(Gov't’s Reply to Def.’s Mem. in Supp. of Mot. to Suppress)
[Doc. No. 40].
II. FACTS
As stated above, Deputy O'Meara and Deputy Fletcher are
deputies with the Dakota County Sheriff's Office (Tr. at
7, 54). Deputy Fletcher previously worked with the Drug
Enforcement Agency (“DEA”) task force and is certified as
a clandestine drug examiner. (Id. at 55). During his DEA
tenure, Deputy Fletcher participated in searches of residences
for narcotics. (Id. at 56).
On January 6, 2018, Deputy O'Meara, Deputy Fletcher,
and several other deputies responded to a “check welfare
call” for Hanuman, who was described as “messed up.” (Id.
at 9–10, 57). Dispatch advised the deputies that Hanuman
was on probation following his conviction of being a felon
in possession of a firearm. (Id. at 10–11). Deputies were
also aware that Hanuman had a history of drug use. (Id.
at 11); see also (id. at 58). After an unsuccessful attempt
to contact Hanuman by phone, Deputy O'Meara drove to
Hanuman's residence in Hampton, Minnesota, while other
officers searched for Hanuman in other locations in Hampton.
(Id. at 9, 12–14). Deputy O'Meara drove around the residence
to determine whether anyone was home and observed some
lights on. (Id. at 14). Deputy O'Meara then parked his squad
car and was joined by Deputy Johnson. (Id. at 14–15).
After learning the other deputies were unable to locate to
locate Hanuman, Deputy O'Meara and Deputy Johnson then
knocked on the outer front door of Hanuman's residence. (Id.
at 15–16). At this point, Deputy Fletcher had also arrived at

841(b)(1)(B), and possession of a firearm in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 9

1

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

Hanuman's residence and was waiting in his squad car. (Id.
at 59).
*2 After his first knock, Deputy O'Meara heard a faint
yell. (Id. at 17). After knocking again, he heard a female
voice screaming for help. (Id.); see also (id. at 60). Deputy
O'Meara asked the woman to come to the door, but could not
communicate with her. (Id. at 17–18). Deputy Fletcher took
his ram in anticipation of a forced entry, instructed Deputy
Johnson to get his rifle, and instructed Deputy Jaskowiak
to get her “less lethal shock gun.” (Id. at 60). The three
deputies approached the door, as did Deputy Klug. (Id. at 18).
Deputy O'Meara and Deputy Fletcher received permission to
breach the door, and Deputy O'Meara kicked in the glass door.
(Id. at 18–19, 62–63). Then Deputy O'Meara stepped aside,
and Deputy Fletcher breached the door with a ram. (Id. at
19). At this point, Deputy Johnson and Deputy Klug were
at the back of the house. (Id. at 34, 64). Deputy Fletcher,
Deputy O'Meara, and Deputy Jaskowiak—whose firearms
were drawn—entered the home into a split entry way and saw
a motionless woman at the bottom of the stairway. (Id. at 21,
64–65). Deputy Joskowiak's body microphone was recording
when the deputies entered the home. See (Govt's Exs. 1, 1A);
(Tr. at 20–21, 60–61). The woman was moaning and yelling in
pain. (Id. at 21–22, 65); see (Gov't’s Exs. 2–3) (photographs
of the victim lying on the floor). At this point, Deputy Klug
joined the others, and the deputies asked the woman if anyone
was home. (Id. at 23, 65). She told the deputies that Hanuman
had hit her and that he was in the home. (Id. at 23, 65–66).
Deputy Fletcher radioed to dispatch for medical assistance.
(Id. at 65). The deputies then searched the residence with their
guns drawn to look for Hanuman. (Id. at 24, 66).
Deputy O'Meara and Deputy Fletcher went up the stairs, while
Deputy Jaskowiak and Deputy Klug searched the garage.
(Id. at 27, 66). Deputy O'Meara heard Deputy Jaskowiak
and Deputy Klug giving verbal commands suggesting that
they had found someone. (Id. at 27–28); see also (id. at 66–
67). Deputy O'Meara then radioed to dispatch that the other
deputies had found someone. (Id. at 28). He and Deputy
Fletcher went to the garage to assist. (Id.). Deputy O'Meara
observed Deputy Jaskowiak and Deputy Klug holding a man
—later identified as Hanuman—at gunpoint near the front of
the driver's side of the sedan in the garage. (Id.). The deputies
told Hanuman not to move and to keep his hands up. (Id. at
29–30). Hanuman lowered his hands and the deputies raised
their voices to tell him to keep his hands up and arrested
him. (Id. at 30, 69). Deputy O'Meara asked Hanuman twice
if anyone was home, but Hanuman did not respond. (Id. at

30); see also (id. at 92–93). After Hanuman was arrested and
put into the back of a squad car, Deputy O'Meara, Deputy
Jaskowiak, and Deputy Fletcher went back into the home
to search the rest of the residence to see if anyone else
was inside. (Id. at 30–31, 69). Deputy O'Meara stated that
the purpose of the search was to make sure the scene was
safe, to treat the victim, to see who was inside, and to make
sure “there's no unknowns.” (Id. at 30–31). Deputy Fletcher
testified that the protective sweep was necessary to protect
the safety of himself, the other deputies, the victim, and
the paramedics. (Id. at 69–70). Deputy Fletcher testified that
protective sweeps are limited to places where a person can be,
including in closets, underneath beds, and in various rooms
in the house. (Id. at 70).
Deputy Fletcher and Deputy O'Meara began the protective
sweep by looking in the living room and kitchen. (Id. at 70). In
the kitchen, Deputy Fletcher noticed a digital scale, tear-offs,
and baggies on the center island of the kitchen. 1 (Id. at 71);
see (Gov't’s Exs. 8–10). Deputy Fletcher also found a torch
and propane tank on the staircase, which he believed to be
used to heat methamphetamine, heroin, or another controlled
substance. (Tr. at 71–72); see (Gov't’s Ex. 4). In the corner
of the upstairs bedroom, Deputy Fletcher saw a black safe.
(Tr. at 74); see also (Gov't’s Exs. 11–12). Deputy Fletcher
also saw a large amount of Ziploc bags, which he knows to
be commonly used for controlled-substance distribution, and
a Gatorade bottle that “had been fashioned into some sort
of methamphetamine pipe.” (Tr. at 74–75); see (Gov't’s Exs.
13–14). After the protective sweep of the upper level was
completed, Deputy Fletcher, Deputy O'Meara, and Deputy
Jaskowiak did a sweep of the lower level. (Tr. at 76). Deputy
Fletcher instructed Deputy Johnson and Deputy Klug to place
Hanuman into a squad car. (Id. at 76–77). Deputy Fletcher
was informed that a large amount of U.S. currency had been
found on Hanuman. (Id. at 79). Deputy Fletcher then radioed
to dispatch that the scene was safe and that the medics were
clear to enter the scene. (Id. at 77). The deputies began treating
the victim, and Deputy Fletcher assisted the medics when they
arrived on the scene. (Id. at 33–33, 78).
1

Deputy Fletcher defined a tear-off as the corner of
a Ziploc bag that is ripped off from the rest of the
bag and used to store drugs by tying the end off.
(Tr. at 73).

*3 Deputy Fletcher remained on the scene and waited for
the authorization of a search warrant. (Id. at 78). The search
warrant was based on the items the deputies had seen in plain

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 10

2

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

view during their protective sweep, as well as the assault
allegation. (Id.). After the search warrant was obtained,
Deputy Fletcher searched the residence and found a .357
handgun and more than 100 grams of methamphetamine in
Hanuman's car. (Id. at 88–89).
Hanuman argues that the deputies’ protective sweep was not
justified and therefore violated the Fourth Amendment. See
(Hanuman's Mem. in Supp. at 5). Correspondingly, Hanuman
argues the evidence seized pursuant to the search warrant—
which was based on items viewed during the protective sweep
—should “be suppressed as fruit from a poisonous tree.” (Id.).
III. DISCUSSION
A. Legal Standard
The Fourth Amendment guarantees “[t]he right of the
people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures.” U.S.
Const. amend. IV. “[S]earches conducted outside the judicial
process, without prior approval by judge or magistrate, are
per se unreasonable under the Fourth Amendment—subject
only to a few specifically established and well-delineated
exceptions.”
Katz v. United States, 389 U.S. 347, 357
(1967) (footnotes omitted).
One of these exceptions is a protective sweep—“a quick and
limited search of premises ... narrowly confined to a cursory
visual inspection of those places in which a person might be
hiding.”
Maryland v. Buie, 494 U.S. 325, 327 (1990). In
a situation where a suspect is or recently was arrested, law
enforcement officers may need to ensure that the suspect “is
not harboring other persons who are dangerous and who could
unexpectedly launch an attack.”
Id. at 333. This risk is
higher in case of an arrest—compared to a traffic stop—for
two reasons. First, an arrest is a “serious step of taking a
person into custody for the purpose of prosecuting him for a
crime.” Id. In a traffic stop, the “police-citizen confrontation”
has not yet “escalated to the point of arrest.” Id. Second,
“unlike an encounter on the street or along a highway, an
in-home arrest puts the officer at the disadvantage of being
on his adversary's ‘turf.’ An ambush in a confined setting of
unknown configuration is more to be feared than it is in open,
more familiar surroundings.” Id.
In order to conduct such a protective sweep, “there must
be articulable facts which, taken together with the rational
interferences from those facts, would warrant a reasonably

prudent officer in believing that the area to be swept harbors
an individual posing a danger to those on the arrest scene.”
Id. at 334.
B. Analysis
The Court concludes that at the time of the protective sweep,
the deputies had specific, articulable facts that suggested that
there may be an unidentified individual in the residence and
the protective sweep was lawful.
As an initial matter, the Court notes that arresting and
removing a defendant is not dispositive of the lawfulness of a
protective sweep. See United States v. Waters, 883 F.3d 1022,
1026 (8th Cir. 2018) (per curiam) (citing United States v.
Alatorre, 863 F.3d 810, 814 (8th Cir. 2017);
United States
v. Boyd, 180 F.3d 967, 975–76 (8th Cir. 1999) ); see also
Buie, 494 U.S. at 334 (“[A]rresting officers are permitted
in [certain] circumstances to take reasonable steps to ensure
their safety after, and while making, the arrest.”). The Eighth
Circuit has found protective sweeps lawful in circumstances
similar to this case. In one case, a protective sweep was
lawful when there were areas of the residence that were not
visible to officers. See Alatorre, 863 F.3d at 813–15. When
officers approached the house, they “saw movements in the
residence consistent with multiple people inside.” Id. at 812.
The officers conducted a protective sweep after the defendant
was arrested and removed from the residence and after his
girlfriend left the residence and said no one else was inside.
Id. The Eighth Circuit concluded that officers “dealing with
[defendant] and his girlfriend were vulnerable to attack from
someone inside the residence.” Id. at 815.
*4 In another case, law enforcement officers knew that
the defendant “was on parole for possession of narcotics
with intent to distribute and possession of a machine gun.”
Boyd, 180 F.3d at 975. They secured all the occupants
of the house, handcuffed the defendant, and moved him to
another area of the residence before conducting a protective
sweep. Id. The Eighth Circuit concluded the protective sweep
was lawful because the search was “quick and limited” and
“confined to places large enough to conceal a person.”
at 976 (internal quotation marks omitted).

Id.

Here, Hanuman had been arrested at the time of the protective
sweep. (Tr. at 30–31, 69). The woman in the home had
only identified one other person—Hanuman—as being in the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 11

3

United States v. Hanuman, Not Reported in Fed. Supp. (2018)

residence. (Id. at 23, 65). Hanuman, however, when asked
if anyone else was in the home, refused to answer. (Id. at
30, 92–93). The deputies were aware that Hanuman was on
probation for being a felon in possession of a firearm and
had been arrested in the past for controlled-substance related
offenses. (Id. at 10–11, 58). The Court concludes that these
facts are sufficient for the deputies to reasonably conclude
that the residence may have contained an individual posing
Buie, 494
a danger to the deputies at the scene. 2 See
U.S. at 334; United States v. Williams, 577 F.3d 878, 881
(8th Cir. 2009) (“While hindsight reveals that the officers
had already encountered all of the occupants of the home
before conducting the protective sweep, that information was
not apparent to the officers when they initiated the sweep.”).
Therefore, the Court concludes the protective sweep was
lawful. Correspondingly, the items in plain view during the
protective sweep were properly included in the search warrant
application, and suppression of the evidence obtained from
the execution of the search warrant is not warranted.
2

Hanuman speculates that the true reason for the
protective sweep was because officers felt entitled
to do it. (Hanuman's Mem. in Supp. at 1, 8–
9). Hanuman argues this is so because when
Hanuman asked why officers were searching his
home, Deputy Fletcher responded, “because we
can.” (Id.); (Tr. at 80–81). But this Court must rely
on what facts the deputy knew at the time of their
sweep, not statements they made afterwards. See

IV. RECOMMENDATION
Based on all the files, records, and proceedings herein, IT IS
HEREBY RECOMMENDED that
1. Defendant Michael Scott Hanuman's (“Hanuman”)
Motion to Suppress Evidence Obtained as a Result of
Search and Seizure [Doc. No. 24] be DENIED; and
2. Hanuman's Motion to Suppress Statements, Admissions,
and Answers [Doc. No. 25] be DENIED as moot.

Notice
Filing Objections: This Report and Recommendation is not
an order or judgment of the District Court and is therefore, not
appealable directly to the Eighth Circuit Court of Appeals.
Under D. Minn. LR 72.2(b)(1) “a party may file and serve
specific written objections to a magistrate judge's proposed
findings and recommendations within 14 days after being
served a copy” of the Report and Recommendation. A party
may respond to those objections within 14 days after being
served a copy of the objections. LR 72.2(b)(2). All objections
and responses must comply with the word or line limits set
forth in LR 72.2(c).
All Citations
Not Reported in Fed. Supp., 2018 WL 6520650

Buie, 494 U.S. at 334.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 12

4

